TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Ensuring the Quality Review Process
                       Is Consistently Followed Remains a
                        Problem for the Volunteer Program



                                           July 27, 2012

                              Reference Number: 2012-40-088




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


ENSURING THE QUALITY REVIEW                          example, volunteers did not always use the
PROCESS IS CONSISTENTLY                              intake sheets correctly.
FOLLOWED REMAINS A PROBLEM FOR                       The deductions and credits to which the auditors
THE VOLUNTEER PROGRAM                                were entitled were denied on three tax returns
                                                     because the auditors did not provide receipts to
                                                     support the expenditures. These were not
Highlights                                           counted as errors when calculating the accuracy
                                                     rates.
Final Report issued on July 27, 2012
                                                     The IRS has implemented an extensive quality
Highlights of Reference Number: 2012-40-088          review process, but it has limitations and may
to the Internal Revenue Service Commissioner         not be providing reliable results. The accuracy
for the Wage and Investment Division.                rate for the IRS’s statistical sample of prepared
                                                     tax returns is 92 percent. This year, the IRS
IMPACT ON TAXPAYERS                                  also conducted 53 anonymous shopping visits.
                                                     Volunteers prepared tax returns for IRS
The Volunteer Program provides no-cost               shoppers with a 60 percent accuracy rate.
Federal tax return preparation and electronic
filing to underserved segments of individual         The IRS has taken numerous actions to ensure
taxpayers, including low- to moderate-income,        the integrity of volunteers. It has strengthened
elderly, disabled, and limited-English-proficient    the Volunteer Standards of Conduct and
taxpayers. However, preparing accurate tax           requires that all volunteers take ethics training.
returns remains a challenge for the Volunteer        It also made improvements to the Volunteer
Program. When taxpayers are denied credits or        Program hotline to better track and control
deductions to which they are entitled, they may      contacts received through its internal and
never realize they are in fact entitled to these     external referral processes.
funds, and those who know they are entitled will
have the added burden of filing an amended tax       WHAT TIGTA RECOMMENDED
return to obtain the funds.                          TIGTA recommended that the IRS continue to
                                                     emphasize with volunteers the necessity of
WHY TIGTA DID THE AUDIT
                                                     reviewing the intake sheet with taxpayers during
This was a follow-up audit to prior TIGTA            tax return preparation to ensure tax returns are
reviews to determine whether taxpayers visiting      prepared accurately. The IRS should also
IRS Volunteer Program sites receive quality          establish minimum due diligence standards for
service, including accurate tax returns.             volunteers when preparing tax returns.

WHAT TIGTA FOUND                                     In their response to the report, IRS officials
                                                     agreed with the recommendations. The IRS
The accuracy rates of tax returns prepared for       updated Form 13614-C, Intake/Interview and
our auditors at IRS Volunteer Program sites          Quality Review Sheet, and plans to continue to
increased from 39 percent in the 2011 Filing         emphasize training on proper intake and
Season to 49 percent in the 2012 Filing Season.      interview techniques. The IRS plans to adjust
Three of 16 tax topics tested contributed the        volunteer training and resource materials to
most errors—the deductions for Educator              clarify and underscore the due diligence
Expenses, Individual Retirement Arrangement          obligations of volunteers when preparing tax
contributions, and small business expenses.          returns.
The accuracy rates for three other topics ranged
from 77 to 83 percent, and the accuracy rates
for the remaining 10 tax topics were greater than
90 percent.
Tax returns were prepared incorrectly because
volunteers did not follow all guidelines. For
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 July 27, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Ensuring the Quality Review Process Is
                              Consistently Followed Remains a Problem for the Volunteer Program
                              (Audit # 201240002)

 This report presents the results of our review to determine whether taxpayers visiting Internal
 Revenue Service Volunteer Program1 sites receive quality service, including accurate tax returns.
 This was a follow-up audit to prior Treasury Inspector General for Tax Administration reviews2
 and is part of our Fiscal Year3 2012 Annual Audit Plan. The audit addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix X.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and
 Account Services), at (770) 617-6434.




 1
   Includes the Volunteer Income Tax Assistance Program, the Tax Counseling for the Elderly Program, and the
 Volunteer Income Tax Assistance Grant Program.
 2
   See Appendix IX for a list of these prior reports.
 3
   A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s fiscal year begins on October 1 and ends on September 30.
                        Ensuring the Quality Review Process Is Consistently Followed
                               Remains a Problem for the Volunteer Program




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 7
          The Accuracy of Tax Returns Remains a Challenge
          for the Volunteer Program ............................................................................ Page 7
                     Recommendations 1 and 2: .............................................. Page 14

          Volunteer Program Site Information Was Inaccurate ................................... Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Cities and States Visited to Have Tax Returns
          Prepared ........................................................................................................ Page 19
          Appendix V – Accuracy Rate by Tax Topic ................................................. Page 20
          Appendix VI – Intake/Interview and Quality Review Sheet ........................ Page 21
          Appendix VII – Volunteer Standards of Conduct
          Agreement – VITA/TCE Program ................................................................ Page 25
          Appendix VIII – General Characteristics of Tax Returns Prepared
          by the Volunteer Program During Calendar Year 2012 ............................... Page 27
          Appendix IX – Treasury Inspector General for Tax Administration
          Audit Reports on the Volunteer Tax Return Preparation Program ............... Page 29
          Appendix X – Management’s Response to the Draft Report ....................... Page 30
          Ensuring the Quality Review Process Is Consistently Followed
                 Remains a Problem for the Volunteer Program




                         Abbreviations

IRA                Individual Retirement Arrangement
IRS                Internal Revenue Service
QSS                Quality Statistical Sample
SPEC               Stakeholder Partnerships, Education, and Communication
SPECTRM            SPEC Total Relationship Management System
TCE                Tax Counseling for the Elderly
VITA               Volunteer Income Tax Assistance
                   Ensuring the Quality Review Process Is Consistently Followed
                          Remains a Problem for the Volunteer Program




                                           Background

The Volunteer Program plays an important role in achieving the Internal Revenue Service’s
(IRS) goals of improving taxpayer service and facilitating participation in the tax system. It
provides no-cost Federal tax return preparation and electronic filing to underserved segments of
individual taxpayers, including low- to moderate-income, elderly, disabled, and limited-English-
proficient taxpayers. It includes sites operated in partnership with the military and with various
community-based organizations. The Volunteer Program is comprised of the Volunteer Income
Tax Assistance (VITA) Program, including the Volunteer
Income Tax Assistance Grant Program, and the Tax Counseling
                                                                           Volunteers play an
for the Elderly (TCE) Program.                                         increasingly important role
                                                                                in helping the IRS achieve
The VITA Program was originated in 1969 due to enactment
                                                                                  its goals of improving
of the Tax Reform Act of 19691 and an increased emphasis on                        taxpayer service and
taxpayer education programs. The IRS has placed continual                        facilitating participation
emphasis on expanding the VITA Program through increased                             in the tax system.
recruitment of various religious, social and nonprofit, corporate,
financial, educational, and government organizations;
involvement of the military on a national level; and expansion
of assistance provided to the limited-English-proficient
community.
The TCE Program began with the Revenue Act of 19782 that
authorized the IRS to enter into agreements with private or nongovernmental public nonprofit
agencies and organizations to provide training and technical assistance to volunteers who provide
free tax counseling and assistance to elderly individuals in the preparation of their Federal
income tax returns. The law authorizes an appropriation of special funds, in the form of grants,
to provide tax assistance to persons age 60 and older. The IRS receives the funds as a line item
in the budget appropriation. The total funds are distributed to the sponsors3 for their expenses.
Since Fiscal Year 2009,4 the IRS has granted funds for the VITA Grant Program. For the
2012 Filing Season,5 213 organizations were awarded almost $12 million in matching grants.



1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  Pub. L. No. 95-600, 92 Stat. 2810.
3
  A sponsor would be an entity similar to the AARP (formerly the American Association of Retired Persons).
4
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
5
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                         Page 1
                    Ensuring the Quality Review Process Is Consistently Followed
                           Remains a Problem for the Volunteer Program



The grants are to be used to increase the capacity to file tax returns electronically and enhance
training of volunteers at VITA sites.
For Fiscal Year 2011, more than 88,500 volunteers staffed a total of 12,486 Volunteer Program
sites. Volunteers prepared more than 1.8 million individual income tax returns at VITA sites and
more than 1.3 million at TCE sites. Figure 1 provides key production data for Fiscal Years 2009
through 2011.
            Figure 1: Key Volunteer Program Data for Fiscal Years 2009–2011

                                        Fiscal Year         Fiscal Year         Fiscal Year       Percentage
                                           2009                2010                2011            Change*
    VITA
      Paper Returns                        145,828             153,998             139,399           -9.48%
      Electronically Filed Returns       1,608,605           1,631,617           1,712,030            4.93%
    Total VITA Tax Returns               1,754,433           1,785,615           1,851,429            3.69%
    Total VITA Sites                         6,468                5,845               6,276           7.37%
    Total VITA Volunteers                   47,964              52,296               53,642           2.57%
    TCE
      Paper Returns                        111,502              88,385               58,248         -34.10%
      Electronically Filed Returns       1,165,843           1,196,898           1,261,513            5.40%
    Total TCE Tax Returns                1,277,345           1,285,283           1,319,761            2.68%
    Number of Sites                          5,692                6,481               6,210          -4.18%
    Number of Volunteers                    34,689              35,306               34,885          -1.19%
    TOTALS6
    Tax Returns7                         3,031,778           3,070,898           3,171,190            3.27%
    Sites                                   12,160              12,326               12,486           1.30%
    Volunteers                              82,653              87,602               88,527           1.06%
    Source: IRS management information system containing information for Fiscal Years 2009 through 2011.
    * = Percentage change is calculated using the change from Fiscal Year 2010 to 2011.

This audit included an assessment of tax returns prepared at VITA sites and TCE/AARP
sponsored sites. Figure 2 provides a breakdown of the Volunteer Program and the percentage of
tax returns prepared during the 2012 Filing Season.

6
  The Tax Returns and Site totals for Fiscal Year 2011 do not include tax returns prepared using Facilitated Self
Assistance or those sites.
7
  This does not include tax returns prepared in a volunteer site without the program type (VITA, TCE, or Military)
being identified.
                                                                                                            Page 2
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



                 Figure 2: Percentage of Tax Returns Prepared at the
                Volunteer Program Sites During the 2012 Filing Season




                Source: IRS Stakeholder Partnerships, Education, and Communication function.

The IRS Stakeholder Partnerships, Education, and Communication (SPEC) function is
responsible for providing oversight for the Volunteer Program, which includes determining
policies and procedures, developing products and training material, and monitoring and
managing Volunteer Program activity. The SPEC function’s concept of operations includes
looking for opportunities to assist third parties to help taxpayers understand and meet their tax
obligations by promoting collaboration among tax practitioners, tax preparers, and community
partners to support the Volunteer Program.

Tax scenarios used by auditors reflected tax topics volunteers were trained to
handle for taxpayers seeking assistance from the Volunteer Program
Three scenarios were designed for auditors to use as they posed as taxpayers having tax returns
prepared by volunteers (referred to as shopping). The scenarios were developed to use
characteristics of taxpayers who visit Volunteer Program sites to have a tax return prepared and
tax law topics that assessed the volunteers’ use of the tools the SPEC function created to ensure
that accurate tax returns are prepared. The scenarios included only tax topics for which the
volunteers had been trained.
In addition, although most tax returns prepared by volunteers are prepared for taxpayers who file
with no dependents, auditors used two scenarios that included tax topics dealing with dependents
and related tax credits. About 80 percent (2.4 of 3 million) of the taxpayers who use the
Volunteer Program tax preparation assistance receive tax refunds. Three credits, the Earned
Income Tax Credit, the Child Tax Credit, and the Additional Child Tax Credit, contributed to

                                                                                               Page 3
                      Ensuring the Quality Review Process Is Consistently Followed
                             Remains a Problem for the Volunteer Program



42 percent ($1.6 of $3.8 billion) of the tax refunds issued to taxpayers who had their tax returns
prepared by volunteers in the 2012 Filing Season. These credits generally require that taxpayers
have dependents to claim the credits. Figure 3 shows the amount of refunds generated by Tax
Year 2011 returns prepared by the Volunteer Program.
              Figure 3: Refunds or Balances Due Generated From Tax Returns
                Filed as of May 3, 2012, Prepared by the Volunteer Program 8

              Refund Due/                   Dollar               Tax Return          Percentage of Tax
              Balance Due                   Totals                  Volume              Return Volume
              Refunds Due              $3,798,900,016               2,401,165               80.56%
              Balances Due               $286,575,286                301,264                10.11%
              Breakeven                               $0             278,155                  9.33%

                                                           Dollar
               Credits Claimed                             Totals                Tax Return Volume
              Earned Income Tax Credit             $1,016,851,086.00                    683,206
              Additional Child Tax Credit            $342,663,759.60                    296,985
              Child Tax Credit                       $228,866,379.63                    227,662
              Total                                $1,588,381,225.23
             Source: Our analysis of IRS management information system containing all Tax Year 2011
             tax returns filed as of May 3, 2012.

Other factors considered when preparing the scenarios and selecting the sites
During the 2010 Filing Season, it became apparent that various factors were influencing the
accuracy rate.
          Volunteers had come to recognize the scenarios the auditors were using to have tax
           returns prepared.
          In prior years, one of the criteria for site selection was the volume of tax returns prepared
           at the sites and trending of sites previously visited. As such, high volume sites had a
           higher probability of being tested, which the volunteers had also come to recognize.
          The IRS was aware of our site visits. Because auditors were doing other tests at the sites
           after they had tax returns prepared, IRS employees were on site to conduct their own
           review after tax preparation.



8
    See Appendix VIII for tables showing the general characteristics of tax returns prepared by the Volunteer Program.
                                                                                                              Page 4
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



Therefore, beginning with the 2011 Filing Season, the scenarios were changed to show multiple
sources of income from self-employment and private businesses. One scenario results in taxes
owed instead of a tax refund. In addition, the criteria for site selection were changed; the volume
of tax returns prepared at the sites is not one of the criteria. Site selection is based on audit
resources, proximity of sites to major cities, and geographical location of the auditors. To
expand testing to include sites never visited, we eliminated sites and most cities visited in prior
audits. Finally, we no longer advise the IRS which sites are included in the testing, and IRS
employees are not on site at any time on the day of the visits. The following are the three
scenarios used by auditors during the 2012 Filing Season.
Scenario 1 – The taxpayer was single, had never been married, and lived with his or her sister.
             The taxpayer had one child/grandchild, age eight, who lived with the taxpayer in
             the home during the summer, approximately three months a year. The child lived
             with the mother/father during the school year, approximately nine months of the
             year. During Tax Year 2011, the taxpayer worked at a school as a teacher’s aide,
             a home improvement store (was laid off), and at a local retail store. Total income
             reported on Forms W-2, Wage and Tax Statement, was $17,034. The taxpayer
             received a Form 1099-INT, Interest Income, totaling $7.35. The taxpayer spent
             $350.00 for school supplies. The taxpayer won $1,900 playing the slot machines
             over the 4th of July holiday (won on July 5); $285 in Federal income tax was
             withheld from the winnings. The taxpayer also contributed $500 to an Individual
             Retirement Arrangement (IRA).
               An accurately prepared tax return would result in the taxpayer receiving a refund
               of $178. The tax return preparer would have correctly determined that the
               taxpayer’s filing status was Single. The taxpayer did not provide more than half
               the cost of keeping up a home for a qualifying child, and the taxpayer could not
               claim the child as a dependent for Child Tax Credit purposes. The Earned Income
               Tax Credit would not be available to the taxpayer because the child did not live
               with the taxpayer for more than half of the year and the earned income exceeded
               the maximum allowable amount for a single taxpayer.
Scenario 2 – The taxpayer was divorced and lived with his or her nine-year-old child/
             grandchild. The taxpayer had wages reported on the 2011 Forms W-2 totaling
             $29,232. The taxpayer was paid biweekly and contributed $1,263 to a 401(k)
             retirement plan. The taxpayer received a 2011 Form 1099-INT totaling $4.13,
             received $300 a month for child support, and had dependent care expenses
             totaling $1,370.
               An accurately prepared tax return would result in the taxpayer receiving a refund
               of $2,550. The tax return preparer would have correctly determined that the
               taxpayer’s filing status was Head of Household and the dependency exemption
               could be claimed. In addition, the taxpayer qualified for an Earned Income Tax

                                                                                            Page 5
                       Ensuring the Quality Review Process Is Consistently Followed
                              Remains a Problem for the Volunteer Program



                    Credit of $1,091, a Child Tax Credit of $895, an Additional Child Tax Credit of
                    $105, a Child and Dependent Care Credit of $370, and a Retirement Savings
                    Contributions Credit of $126.
Scenario 3 – The taxpayer was single with no dependents and shared an apartment with a
             friend. The taxpayer was employed at a home improvement center and had
             Form W-2 wages in the amount of $18,435 for Tax Year 2011. The taxpayer was
             also self-employed and earned a total of $17,800 and had expenses totaling
             $4,812.
                    A correctly prepared tax return would result in the taxpayer owing $3,380. The
                    preparer would have correctly determined that the taxpayer’s filing status was
                    Single.
This was a follow-up audit to prior Treasury Inspector General for Tax Administration reviews.9
This review was performed at the SPEC function in the Wage and Investment Division in
Atlanta, Georgia, during the period January through May 2012. In addition, from February
through April 2012, Treasury Inspector General for Tax Administration auditors performed
40 anonymous visits and had 39 tax returns prepared at 40 judgmentally selected10 Volunteer
Program sites located in 14 States. Three different sites were generally selected in each State,
with one site selected in another State as a make-up visit. Appendix IV provides a list of the
14 States and the specific cities where the sites were located.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




9
    See Appendix IX for a list of these prior reports.
10
     A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 6
                              Ensuring the Quality Review Process Is Consistently Followed
                                     Remains a Problem for the Volunteer Program




                                             Results of Review

The Accuracy of Tax Returns Remains a Challenge for the Volunteer
Program
The accuracy rates for tax returns prepared at Volunteer Program sites increased from the
2011 Filing Season. Of the 39 tax returns prepared for our auditors, 19 (49 percent) were
prepared correctly and 20 (51 percent) were prepared incorrectly. The accuracy rate should not
be projected to the entire population of tax returns prepared at the Volunteer Program sites.
Nevertheless, if the 20 incorrect tax returns had been filed: 12 (60 percent) taxpayers would not
have been refunded a total of $3,996 to which they were entitled, one (5 percent) taxpayer would
have received a refund of $303 more than the amount to which he or she was entitled,
one (5 percent) taxpayer would have owed $165 less than the amount that should have been
owed, and six (30 percent) taxpayers would have owed an additional total of $1,483 in tax and/or
penalties.
Figure 4 shows the accuracy rates of tax returns prepared for our auditors for the 2004 through
2012 Filing Seasons.
                                   Figure 4: Overall Tax Return Accuracy Rates
                                         for the 2004–2012 Filing Seasons
                            100%
                                                                                          90%
                             80%                                      69%
            Accuracy Rate




                                                             56%             59%
                             60%
                                                    39%
                                          34%
                             40%
                                                                                                                49%
                             20%     0%
                                                                                                   39%
                              0%
                                   2004   2005    2006    2007     2008     2009   2010
                                                                                            2011
                                                                                                         2012
                                                 Filing Season
          Source: Tax returns prepared for our auditors by volunteers during the
          2004–2012 Filing Seasons.

During the 2012 Filing Season, tax returns were not always prepared correctly because
volunteers did not obtain sufficient information to apply the tax law correctly. In addition,

                                                                                                                      Page 7
                       Ensuring the Quality Review Process Is Consistently Followed
                              Remains a Problem for the Volunteer Program



volunteers did not always follow all applicable guidelines when preparing returns. Lastly, when
using Scenario 3, which if prepared correctly would have resulted in the taxpayer owing taxes,
auditors expected the volunteers to educate the taxpayers on the estimated tax penalty, explaining
that it would not be added to the tax return at this time, but the IRS would calculate the penalty
for the taxpayer and send a bill, if applicable. Volunteer Program guidelines instruct volunteers
not to calculate or impose the penalty. Volunteers did not follow all of these guidelines when
preparing any of the 13 small business tax returns. However, only three (23 percent) of the
13 tax returns were counted as having penalty errors because in those three instances the
volunteers incorrectly calculated the estimated tax penalty and entered it on the tax returns.
Figure 5 shows the accuracy rate by scenario.
                             Figure 5: Overall Tax Return Accuracy Rates
                                       for the 2012 Filing Season

                                                                Number of Tax
                                                              Returns Prepared            Accuracy
                      Tax Scenario Used                       Using the Scenario            Rate
                      Scenario 1                                        13                   31%
                      Scenario 2                                        13                   69%
                      Scenario 3                                        13                   46%
                      Total Accuracy                                    39                   49%
                     Source: Tax returns prepared for our auditors by volunteers during the
                     2012 Filing Season.

Three tax topics contributed to most of the errors
Of the 16 tax topics used in the three scenarios, all but three had accuracy rates of at least
75 percent. The accuracy rate for the Estimated Tax Penalty was 77 percent; for the Retirement
Savers Contribution Credit, 78 percent; and for the Child Care and Dependent Care Credit,
83 percent. The accuracy rates for each of the remaining 10 tax topics were greater than
90 percent.11 The accuracy rates for the following three tax topics contributed to the most errors
and caused a significant decrease in the overall accuracy rate.
          The accuracy rate for the Educator Expense deduction was 25 percent. This
           deduction is available to eligible educators in public or private elementary or secondary
           schools. To be eligible, a person must work at least 900 hours during a school year as a
           teacher, instructor, counselor, principal, or aide. Educators may subtract up to $250 of
           qualified expenses when figuring their Adjusted Gross Income. This deduction is
           available whether or not the taxpayer itemizes deductions on Form 1040, U.S. Individual
           Income Tax Return, Schedule A, Itemized Deductions. However, volunteers did not

11
     See Appendix V for a list of tax topics used in the scenarios and the accuracy rate for each topic.
                                                                                                           Page 8
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



       include the deduction on the auditors’ tax returns because they did not completely review
       the Form 13614-C, Intake/Interview and Quality Review Sheet.
      The accuracy rate for the IRA deduction was 50 percent. Taxpayers can reduce
       taxable income by contributing money to a traditional IRA. Contributions to IRAs can be
       made as late as the first due date of a tax return and can be considered retroactive to the
       previous tax year. Contributions up to certain limits can be subtracted from Adjusted
       Gross Income. Volunteers did not include this deduction also because they did not
       completely review the Form 13614-C.
      The accuracy rate for Schedule C expenses was 69 percent. Taxpayers report income
       or loss from operating a business or practicing a profession as a sole proprietor. An
       activity qualifies as a business if the primary purpose for engaging in the activity is for
       income or profit and the taxpayer is involved in the activity with continuity and
       regularity. The volunteers did not interpret the tax law correctly in four instances.
Volunteers at three Volunteer Program sites denied auditors either a credit or deduction to
which they were entitled
The deductions and credits to which the auditors were entitled were denied on four tax returns
because the auditors did not provide receipts to support the Educator Expense deduction, the IRA
deduction, or the Child and Dependent Care Credit. Three of these instances were not counted as
errors when calculating the accuracy rates; the fourth had another deduction omitted and was
counted as an error.
The IRS provides training in tax law and requires that all volunteers comply with certain
standards of conduct—to maintain the highest standards of ethical conduct and to provide quality
service. One of the standards is that volunteers must not knowingly prepare false returns.
Each volunteer must decide the extent to which due diligence must be exercised when assisting a
taxpayer in the preparation of tax returns. There are no specific guidelines requiring that
taxpayers provide receipts to volunteers to support the
deductions or credits claimed on their prepared tax
returns. The IRS does not require that taxpayers               When volunteers deny taxpayers
provide receipts when having tax returns prepared at the         a credit or deduction to which
                                                                they are entitled, they will have
Taxpayer Assistance Centers. The IRS advises                     to file an amended tax return
taxpayers to keep such records in case there is either a          to receive the proper credit
question about an item or an examination of the return.                   or deduction.
Additionally, the IRS has the means to systemically
verify the IRA through its matching program, and the
taxpayer must supply the Taxpayer Identifying Number of the provider for the Child and
Dependent Care Credit. Ultimately, it is the taxpayer who is responsible for all items on the tax
return.


                                                                                            Page 9
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



When a taxpayer is denied a credit or deduction to which he or she is entitled, the taxpayer will
have to file an amended tax return to receive the proper credit or deduction. Amended tax
returns can be complicated, and taxpayers may have to seek the services of a paid preparer.
Additionally, amended tax returns cannot be electronically filed and the IRS will have to process
a paper tax return, further delaying any tax refund.

Tax returns were prepared incorrectly because volunteers did not follow all
guidelines
Quality service and accurate tax return preparation start with the volunteers asking taxpayers the
right questions. A tax return is accurate when the tax law is applied correctly and the tax return
is free from error based on the taxpayer’s interview, his or her supporting documentation, and the
completed IRS-approved Form 13614-C.
During our visits, 39 (100 percent) Forms 13614-C were prepared as required. However, only
30 (77 percent) of 39 volunteers thoroughly reviewed all of Form 13614-C and fully used it to
prepare the tax returns. Of the nine (23 percent) tax returns prepared by volunteers who did not
appropriately use Form 13614-C, five (56 percent) of the nine tax returns were prepared
incorrectly. In addition, for the 39 sites visited:
      12 (31 percent) volunteers did not verify the auditor’s identity.
      16 (41 percent) volunteers did not conduct an interview to verify the accuracy of the
       Form 13614-C.
      28 (72 percent) volunteers did not explain that the taxpayer has the ultimate responsibility
       for the tax return.
The Form 13614-C guides volunteer tax return preparers through taxpayer interviews and allows
them to gather all necessary information to prepare accurate tax returns. The intake and
interview process must include the following at a minimum:
      An interview with the taxpayer that includes explaining the tax return preparation process
       and encouraging him or her to ask questions throughout the interview process.
      Completion of Form 13614-C.
      Confirmation of the taxpayer’s responses provided on the Form 13614-C.
      Use of probing questions to ensure that complete information is gathered.
      Review of all supporting documentation and confirmation with the taxpayer that all
       income was discussed and noted on the Form 13614-C to ensure that it will be included
       on the tax return.



                                                                                           Page 10
                   Ensuring the Quality Review Process Is Consistently Followed
                          Remains a Problem for the Volunteer Program



The SPEC function should continue to educate volunteers and employees to reinforce quality
review guidelines.

The IRS has implemented an extensive quality review process, but it has
limitations and may not be providing reliable results
The SPEC function has a substantial quality review process that includes:
     1. A 100 Percent Quality Review at the Volunteer Sites of Every Tax Return Before It
        Is Filed. These reviews are generally conducted by a designated quality reviewer using a
        quality review tool designed to ensure the accuracy of the taxpayer’s return.
     2. Quality Statistical Sample (QSS) Reviews. Starting with the 2009 Filing Season, the
        IRS began relying on trained tax specialists (QSS reviewers) to visit a statistically valid
        sample of Volunteer Program sites to review a random sample of tax returns for
        accuracy. During a QSS Review, QSS reviewers randomly select for review three tax
        returns that have not yet been signed by taxpayers. Tax return accuracy is determined by
        verifying the taxpayer’s identity and comparing the completed tax return to the completed
        Form 13614-C and the taxpayer’s supporting documents. It is from this review that the
        SPEC function determines and reports its accuracy rate. In Fiscal Year 2012, the SPEC
        function stopped notifying Volunteer Program sites in advance of QSS Reviews.
     3. Post Reviews of Selected QSS Reviews. Using tax returns from QSS Reviews, analysts
        ensure the case files provide adequate documentation to make an accuracy assessment
        and validate that the tax returns were prepared correctly. Reviews are selected by the
        Statistics of Income function using a random sample of all QSS Reviews planned for the
        2012 Filing Season.
     4. Field Site Visits. SPEC function Territory Offices12 select a minimum of 15 percent of
        the Volunteer Program sites to conduct field site visits. During these visits, the Territory
        Office will cover a series of key issues that include (but are not limited to):
                Fraud awareness and prevention.
                Adherence to quality site requirements.
                Site and data security.
                Financial education and asset-building opportunities.
                Key tax law issues.


12
  The SPEC function is divided geographically into four Area Offices and 36 Territory Offices. An Area Office is a
geographic organization level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues. A Territory Office handles implementation of outreach and
education efforts. Directors oversee the Area Offices and managers oversee the Territory Offices.
                                                                                                        Page 11
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



       During Calendar Year 2011, the SPEC function conducted more than 3,700 site visits and
       during Calendar Year 2012, as of April 21, 2012, more than 4,400 site visits.
   5. Anonymous Site Visits (Shopping). SPEC shopping reviews are intended to gauge
      taxpayer experience and test tax law accuracy based on specific scenarios. Shopping
      reviews involve unannounced “mystery” shoppers posing as taxpayers using a predefined
      scenario to have their Federal tax returns prepared by Volunteer Program volunteers. The
      results of these reviews consist of comparing the tax returns prepared by the volunteers
      with the predetermined tax return. However, the results of the anonymous site visits are
      not used to measure the accuracy of returns prepared by the Volunteer Program.
QSS reviewers reviewed 337 tax returns, resulting in a 92 percent accuracy rate. However,
unlike when auditors pose as taxpayers and visit volunteer tax preparation sites to have a tax
return prepared, during the QSS Review, volunteers are aware that IRS staff are on site to review
the tax returns they are preparing. Knowing the reviewer is on site introduces bias and could
lead volunteers to be more quality conscious and more apt to adhere to quality processes than
they would have been otherwise. Individuals improve or modify an aspect of their behavior
simply in response to the fact that they are being studied. Consequently, the QSS reviewer may
not be obtaining reliable results or a reliable perspective of the tax return preparation operations.
The IRS also conducted 53 anonymous shopping visits
during the 2012 Filing Season. Volunteers prepared        The IRS conducted 53 anonymous
tax returns for SPEC function shoppers with a                 shopping visits during the
                                                          2012 Filing Season, resulting in a
60 percent accuracy rate. The sites selected were not
                                                              60 percent accuracy rate.
part of a statistically valid sample and, therefore, were
not representative of the accuracy rate for the entire
Volunteer Program. However, SPEC function observations from the 2012 Filing Season
shopping visits showed that:
      Forms 13614-C are present at the site and are being used to some extent; however, there
       is evidence that volunteers are not conducting a thorough interview with the taxpayer.
      Quality reviews are being performed, but there are instances where: 1) the quality review
       was not conducted while the taxpayer was on site or 2) the quality review was not
       conducted by a certified volunteer.
Some volunteers are not following the quality review process guidelines
Since Fiscal Year 2004, the SPEC function and its volunteer organization/partners have worked
to educate and train volunteers about the benefits of following quality assurance processes during
the preparation of every tax return. For every tax return prepared, volunteers are required to
ensure that there is an interview process to confirm a complete and accurate understanding of the
taxpayer’s information and that each tax return is subjected to a quality review. Figure 6
presents a summary of the Volunteer Program quality review process requirements.

                                                                                             Page 12
                   Ensuring the Quality Review Process Is Consistently Followed
                          Remains a Problem for the Volunteer Program



               Figure 6: Volunteer Program Quality Review Requirements

            A quality review process at each site must be used to confirm that the tax law was
            correctly applied and that the tax return is free from error and has been prepared
            correctly based on all available information. A quality review process at each site
            must contain the following critical components for an effective and thorough quality
            review of the tax return:
            1. The taxpayer should participate in the quality review process.
            2. The quality reviewer is required to use a standardized Quality Review Sheet.
            3. The quality reviewer is required to use the available supporting documents to
               confirm identity, income, expenses, and credits on the return.
            4. If applicable, the quality reviewer may have to refer to Publication 4012,
               VITA/TCE Volunteer Resource Guide, and/or Publication 17, Your Federal
               Income Tax (For Individuals).

               Source: VITA and TCE Quality Site Requirements – Changes for 2012.

For each of the 20 tax returns prepared incorrectly, elements of the requirements were not
followed. For example:
        7 (35 percent) incorrect tax returns were not quality reviewed.
        7 (35 percent) quality reviewers did not refer to the entire Form 13614-C.
        12 (60 percent) auditors were not involved in the quality review process.

The Quality of the Volunteer Program is dependent on volunteers
Partner organizations and their volunteers play a significant role in the IRS’s tax return
preparation program. The IRS has taken numerous actions to ensure the integrity of the
volunteers. In Fiscal Year 2011, we reported that procedures needed to be strengthened to
ensure the integrity of the volunteers and the security of taxpayer information.13 In response, the
IRS took numerous actions. For example, the IRS:
        Revised Form 13615, Volunteer Standards of Conduct. The IRS added instructions
         stating that all volunteers must complete the required training, including ethics training,
         and sign the Form 13615 prior to working at a Volunteer Program site. It also
         emphasizes that the form is not valid until the volunteer’s identity is confirmed. The
         prior audit had determined that most forms were not certified by the IRS or the volunteer
         partner as required. Form 13615 is required for all volunteers before working at a site.

13
  Treasury Inspector General for Tax Administration, Ref. No 2011-40-094, Accuracy of Tax Returns, the Quality
Assurance Processes, and Security of Taxpayer Information Remain Problems for the Volunteer Program
(Aug. 2011).
                                                                                                       Page 13
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



      Revised the Form 13614-C and the scripts for its toll-free telephone number,
       1-877-330-1205, to: 1) advise taxpayers who are calling to inquire about their tax
       refunds how to obtain refund information using either the toll-free telephone line or
       IRS.gov, and 2) inform callers that their information is confidential and, although not
       required, leaving identifying information would allow the IRS to contact the taxpayer
       and/or follow up with him or her if more information is necessary.
      Reviewed the IRS fraud hotline procedures and guidelines to determine best practices
       that can be used to improve the Volunteer Program referral process. The IRS designed a
       control number for the 2012 Filing Season to better track and control contacts received
       through its internal and external referral processes. It created a Referral SharePoint site
       to house the call/e-mail log, and the log automatically assigns a control number to each of
       the entries. After an initial assessment of a referral, it is assigned to an analyst to resolve.
       Referrals must be acknowledged within a specified time limit.
The IRS is committed to improving the Volunteer Program and promoting the highest standards
for the volunteers. The IRS has taken numerous actions to help ensure the integrity of the
volunteers and has committed significant resources to increase the accuracy of tax returns
prepared by volunteers. For the Volunteer Program to remain a significant part of the IRS’s tax
preparation program, the IRS must continue to ensure that all volunteers are properly trained and
certified, and that they follow all guidelines and procedures.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Continue to emphasize to volunteers the necessity of reviewing
Form 13614-C with taxpayers during tax return preparation to ensure tax returns are prepared
accurately.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has updated Form 13614-C and will continue to emphasize training on proper intake
       and interview techniques.
Recommendation 2: Establish guidelines for recommended due diligence for volunteers
when preparing tax returns.
       Management’s Response: IRS management agreed with this recommendation and
       will adjust its volunteer training and resource materials to clarify and underscore the due
       diligence obligations of volunteers when preparing tax returns.




                                                                                              Page 14
                  Ensuring the Quality Review Process Is Consistently Followed
                         Remains a Problem for the Volunteer Program



Volunteer Program Site Information Was Inaccurate
A judgmental sample of 137 Volunteer Program sites showed that information for
32 (23 percent) sites did not match the data in the SPEC Total Relationship Management System
(SPECTRM) used to control Volunteer Program data. Figure 7 presents a summary of the site
information that did not match the SPECTRM.
                Figure 7: Site Information Inconsistent With the SPECTRM*

           IRS                               Volunteer
         Toll-Free                          Program Site           AARP                AARP
        Telephone          IRS.gov           Telephone           Telephone            Website

            5                 8                  22                  1                    4

     Source: Auditors’ test of SPECTRM data as of February 24, 2012. *Sites may have not matched on more
     than one option.

IRS guidelines require that volunteer partners complete Form 13715, Volunteer Site Information
Sheet, to provide information on the site, such as site location, operating hours, and current
services offered to assist taxpayers based on their specific needs. The site coordinator or partner
is to complete the form and submit it to the IRS by January 15, 2012. Instead of completing
forms, the AARP submits a data file to the IRS with AARP site information, which is then
uploaded to the SPECTRM.
SPEC function Territory offices are responsible for ensuring all site information is entered in the
SPECTRM timely and accurately. Information from the SPECTRM is then uploaded to the
IRS’s research program, which is used by toll-free telephone assistors and for populating
IRS.gov.
Volunteer Program site errors are caused when the information provided to the IRS by the
volunteer partners is not accurate or timely submitted or when IRS employees do not accurately
or timely input the data into the SPECTRM. In addition, there were 22 incidents where
inaccurate site information was provided by personnel who answered the sites’ direct telephone
number. This creates a burden for taxpayers who rely on the IRS to locate a Volunteer Program
site, determine the hours a particular site is open, or determine what services a site might
provide. We reported this concern in a Fiscal Year 2011 report; therefore, we are not making
any recommendations.14




14
  Treasury Inspector General for Tax Administration, Ref. No 2012-40-021, The Volunteer Program Management
Information System Has Improved, but Better Controls Are Needed to Ensure Data Reliability (Feb. 2012).
                                                                                                   Page 15
                 Ensuring the Quality Review Process Is Consistently Followed
                        Remains a Problem for the Volunteer Program



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers visiting IRS Volunteer Program sites
receive quality service, including accurate tax returns. IRS data included in various figures were
provided for perspective only and were not validated. To accomplish the objective, we:
I.     Determined if the Volunteer Program sites were accurately preparing individual income
       tax returns based on facts provided by the taxpayers. From a population of 12,486 sites,
       we selected a judgmental sample of 40 VITA/Co-Located VITA and TCE-AARP sites
       nationwide and attempted to have a tax return prepared. Three sites were selected in
       13 States with one site selected in another State as a make-up visit.
       Site selection was based on audit resources, proximity of sites to major cities, and
       geographical location of the auditors. In addition, to expand testing to include sites never
       tested, we also eliminated most cities and sites selected in prior audits. We could not
       select a statistical sample due to the volume of sites and geographical location of the sites
       that would need to be selected.
II.    Determined the characteristics of tax returns prepared at the Volunteer Program Sites.
       We assessed the reliability of the data by comparing the data to IRS filing season data.
III.   Assessed the accuracy of the SPEC function’s listing of site locations, operating hours,
       telephone numbers, and other relevant information provided to taxpayers on IRS.gov.
IV.    Followed up on the IRS’s response to the 2011 Filing Season report recommendations to
       ensure referrals reporting improper activities at Volunteer Program sites are properly
       documented, investigated, and resolved.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SPEC function’s policies, procedures,
and practices for preparing tax returns. We evaluated controls by interviewing management and
reviewing policies and procedures. We also conducted tests at Volunteer Program sites.




                                                                                            Page 16
                Ensuring the Quality Review Process Is Consistently Followed
                       Remains a Problem for the Volunteer Program



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Jean Bell, Acting Audit Manager
Tracy Harper, Lead Auditor
Doug Barneck, Senior Auditor
Ken Carlson, Senior Auditor
Jennie Choo, Senior Auditor
Pam DeSimone, Senior Auditor
Jack Forbus, Senior Auditor
Jerome Antoine, Auditor
Ed Carr, Auditor,
Tina Fitzsimmons, Auditor
Ryan Powderly, Auditor
Mark Willoughby, Auditor




                                                                                     Page 17
                Ensuring the Quality Review Process Is Consistently Followed
                       Remains a Problem for the Volunteer Program



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Stakeholder Partnerships, Education and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 18
 Ensuring the Quality Review Process Is Consistently Followed
        Remains a Problem for the Volunteer Program



                                                            Appendix IV

       Cities and States Visited
    to Have Tax Returns Prepared


Birmingham/Hoover/Jacksonville             Alabama
Commerce City/Denver/Lakewood              Colorado
Indianapolis/Zionsville                    Indiana
New Orleans                                Louisiana
Joplin/Kansas City                         Missouri
Carson City/Reno                           Nevada
Portsmouth                                 New Hampshire
Newark                                     New Jersey
Albuquerque                                New Mexico
Gresham/Medford/Portland                   Oregon
Aiken/Columbia/Winnsboro                   South Carolina
Rutland/Westminster/White River Junction   Vermont
Hampton/Newport News                       Virginia
Milwaukee/New Berlin/Racine                Wisconsin




                                                                 Page 19
    Ensuring the Quality Review Process Is Consistently Followed
           Remains a Problem for the Volunteer Program



                                                                               Appendix V

            Accuracy Rate by Tax Topic

                                             Number of
                                            Tax Returns              Percentage
 Tax Topic                                 Using Tax Topic            Correct

 Additional Child Tax Credit                       13                   100%

 Child and Dependent Care                                                83%
                                                   12
 Credit

 Child Tax Credit                                  13                   100%

 Earned Income Tax Credit                          13                    92%

 Educator Expense                                  12                    25%

 Estimated Tax Penalty                             13                    77%

 Exemptions                                        39                    97%

 Filing Status                                     39                    97%

 Gambling Winnings                                 13                   100%

 IRA Deduction                                     10                    50%

 Interest                                          26                    92%

 Retirement Savings Contribution                                         78%
                                                   23
 Credit

 Schedule C Expenses                               13                    69%

 Self-Employment Tax                               13                   100%

 Standard Deduction                                39                    97%

 Wage Income                                       39                    97%

Source: Analysis of tax returns prepared for auditors by volunteers during
the 2012 Filing Season.




                                                                                    Page 20
   Ensuring the Quality Review Process Is Consistently Followed
          Remains a Problem for the Volunteer Program



                                                    Appendix VI

Intake/Interview and Quality Review Sheet




                                                          Page 21
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program




                                                       Page 22
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program




                                                       Page 23
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program




                                                       Page 24
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program



                                                Appendix VII

 Volunteer Standards of Conduct
 Agreement – VITA/TCE Programs




                                                       Page 25
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program




                                                       Page 26
                     Ensuring the Quality Review Process Is Consistently Followed
                            Remains a Problem for the Volunteer Program



                                                                                          Appendix VIII

                General Characteristics of Tax Returns
                 Prepared by the Volunteer Program 1
                     During Calendar Year 2012

                                                                       Tax Return         Percentage
                Type of Tax Return                                      Volume             of Total

          U.S. Individual Income Tax Return (Form 1040)                2,885,238            96.8%
          U.S. Individual Income Tax Return (Form 1040A)                  47,035            1.58%
          Income Tax Return for Single and Joint Filers With No
                                                                          43,460            1.22%
          Dependents (Form 1040EZ)
          U.S. Income Tax Return for Certain Nonresident Aliens
                                                                            7,748           0.26%
          With No Dependents (Form 1040NR-EZ)
          U.S. Individual Income Tax Return (PC) (Form 1040PC)              3,377           0.11%
          U.S. Nonresident Alien Income Tax Return (Form 1040NR)                 429        0.01%
          U.S. Self-Employment Tax Return – Virgin Islands, Guam,
                                                                                 290        0.01%
          American Samoa (Form 1040-SS)

          U.S. Self-Employment Tax Return – Puerto Rico
                                                                                  7        <0.01%
          (Form 1040-PR)



         Refund Due/                  Dollar             Tax Return          Percentage of Tax
         Balance Due                  Totals              Volume              Return Volume

         Refund Due              $3,789,900,016           2,401,165                    80.56%
         Balance Due               $286,575,286            301,264                     10.11%
         Breakeven                             $0          278,155                     9.33%




1
    The IRS Volunteer Program includes the VITA, VITA Grant, and TCE Programs.
                                                                                                       Page 27
                    Ensuring the Quality Review Process Is Consistently Followed
                           Remains a Problem for the Volunteer Program



                      Filing Status/Dependent Claims                     Tax Return      Percentage of 
                                                                          Volume             Totals 

       Single                                                              1,758,774             59.01%
       Married Filing Jointly                                               813,985              27.31%
       Head of Household                                                    357,380              11.99%
       Married Filing Separately and Spouse Is Required to File                 48,854            1.64%
       Widow(er) with Dependent Child                                            1,500            0.05%
       Married Filing Separately and Spouse Is Not Required to File                91            <0.01%
       Tax Return Prepared With One or More Dependent                       641,161              21.51%
       Exemptions, Including Parents 
       Tax Return Prepared With No Dependent Exemptions                    2,339,423             78.49%



        Credits Claimed                                           Tax Return             Dollar Totals
                                                                   Volume

        Earned Income Tax*                                                683,206        $1,016,851,086
        Child Tax*                                                        227,662           $228,866,380
        Additional Child Tax*                                             296,985           $342,663,760
        Retirement Savings Contributions*                                 191,109            $33,189,121
        Education                                                         133,865            $98,973,917
        Child and Dependent Care*                                          48,266            $23,571,586
        Other (Adoption, Gas, and Health Coverage)                              618            $551,660

        * = This credit was included in our test scenarios.

         Income                      Tax Return Volume                Dollar Amounts
         Average Income2             2,963,245                        $23,766

         Other Income3               137,507                          $409,603,105
       Source: Our analysis of tax returns prepared at the Volunteer Program sites during
       Calendar Year 2011 as of May 19, 2011.


2
 Average Income was determined using computer software to calculate the average total income of all taxpayers.
3
 Other Income is a line item on the Form 1040 series tax returns that is not reported on any tax schedules or
anywhere else on the tax returns.
                                                                                                          Page 28
                Ensuring the Quality Review Process Is Consistently Followed
                       Remains a Problem for the Volunteer Program



                                                                             Appendix IX

  Treasury Inspector General for Tax Administration
      Audit Reports on the Volunteer Tax Return
                Preparation Program

Treasury Inspector General for Tax Administration, Ref. No 2004-40-154, Improvements Are
Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue Service Volunteer
Income Tax Assistance Sites (Aug. 2004).
Treasury Inspector General for Tax Administration, Ref. No 2006-40-004, Significant
Improvements Have Been Made in the Oversight of the Volunteer Income Tax Assistance
Program, but Continued Effort Is Needed to Ensure the Accuracy of Services Provided
(Nov. 2005).
Treasury Inspector General for Tax Administration, Ref. No 2006-40-125, Oversight and
Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax Assistance
Program (Aug. 2006).
Treasury Inspector General for Tax Administration, Ref. No 2007-40-137, Accuracy of
Volunteer Tax Returns Is Improving, but Procedures Are Often Not Followed (Aug. 2007).
Treasury Inspector General for Tax Administration, Ref. No 2008-40-177, Accuracy of
Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to Ensure
Consistent Application of Procedures and Processes (Sept. 2008).
Treasury Inspector General for Tax Administration, Ref. No 2009-40-128, Ensuring the Quality
Assurance Processes Are Consistently Followed Remains a Significant Challenge for the
Volunteer Program (Sept. 2009).
Treasury Inspector General for Tax Administration, Ref. No 2010-40-109, Improvements to the
Volunteer Program Are Producing Positive Results, but Further Improvements Are Needed to
the Quality Assurance Process (Sept. 2010).
Treasury Inspector General for Tax Administration, Ref. No 2011-40-094, Accuracy of Tax
Returns, the Quality Assurance Processes, and Security of Taxpayer Information Remain
Problems for the Volunteer Program (Aug. 2011).




                                                                                       Page 29
    Ensuring the Quality Review Process Is Consistently Followed
           Remains a Problem for the Volunteer Program



                                                     Appendix X

Management’s Response to the Draft Report




                                                           Page 30
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program




                                                       Page 31
Ensuring the Quality Review Process Is Consistently Followed
       Remains a Problem for the Volunteer Program




                                                       Page 32
